                           SOCIAL SECURITY
                            Office of the Inspector General

                                     April 22, 2010

The Honorable Earl Pomeroy
Chairman, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Pomeroy:

On April 5, 2010, we received a request from the House Committee on Ways and
Means, Subcommittee on Social Security, to review the impact of reinstating
reconsiderations in the Michigan Disability Determination Services (DDS). Specifically,
the Subcommittee requested an analysis of the cumulative average processing time for
Michigan claimants under the four scenarios below for each of the following Fiscal
Years: 2011, 2012, and 2013.

   1. The Social Security Administration (SSA) implements its plan to reinstate
      reconsideration and fully funds the new reconsideration process.
   2. SSA retains current policy in Michigan: It remains a Prototype State, and no
      additional funds are allocated to the Michigan DDS to process reconsiderations.
   3. Michigan remains a Prototype State, and the funds SSA would have used for the
      reinstatement of reconsideration are provided to the Michigan DDS for
      processing initial claims.
   4. Michigan remains a Prototype State, and the funds SSA would have used for the
      reinstatement of reconsideration are provided to Michigan hearing offices for
      processing administrative law judge hearings.

Thank you for the opportunity to provide the Committee with the requested information.
To ensure the Agency is aware of the information provided to your office, we are
forwarding a copy of this report to the Agency. I have also sent a similar response to
Ranking Member Sam Johnson of the Subcommittee on Social Security.




             SOCIAL SECURITY ADMINISTRATION      BALTIMORE, MD 21235-0001
Page 2 - The Honorable Earl Pomeroy


If you have any additional questions, please call me, or have your staff contact
Misha Kelly, Congressional and Intra-governmental Liaison, at (202) 358-6319.

                                                Sincerely,




                                                Patrick P. O’Carroll, Jr.
                                                Inspector General

Enclosure

cc:
Michael J. Astrue
Sam Johnson
                           SOCIAL SECURITY
                            Office of the Inspector General

                                     April 22, 2010


The Honorable Sam Johnson
Ranking Member, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Johnson:

On April 5, 2010, we received a request from the House Committee on Ways and
Means, Subcommittee on Social Security, to review the impact of reinstating
reconsiderations in the Michigan Disability Determination Services (DDS). Specifically,
the Subcommittee requested an analysis of the total cumulative average processing
time for Michigan claimants under the four scenarios below for each of the following
Fiscal Years: 2011, 2012, and 2013.

   1. The Social Security Administration (SSA) implements its plan to reinstate
      reconsideration and fully funds the new reconsideration process.
   2. SSA retains current policy in Michigan: It remains a Prototype State, and no
      additional funds are allocated to the Michigan DDS to process reconsiderations.
   3. Michigan remains a Prototype State, and the funds SSA would have used for the
      reinstatement of reconsideration are provided to the Michigan DDS for
      processing initial claims.
   4. Michigan remains a Prototype State, and the funds SSA would have used for the
      reinstatement of reconsideration are provided to Michigan hearing offices for
      processing administrative law judge hearings.

Thank you for the opportunity to provide the Committee with the requested information.
To ensure the Agency is aware of the information provided to your office, we are
forwarding a copy of this report to the Agency. I have also sent a similar response to
Chairman Earl Pomeroy of the Subcommittee on Social Security.




           SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
Page 2 - The Honorable Sam Johnson


If you have any additional questions, please call me, or have your staff contact
Misha Kelly, Congressional and Intra-governmental Liaison, at (202) 358-6319.

                                                Sincerely,




                                                Patrick P. O’Carroll, Jr.
                                                Inspector General
Enclosure

cc:
Michael J. Astrue
Earl Pomeroy
   CONGRESSIONAL RESPONSE
          REPORT
Reinstatement of the Reconsideration Step
 in the Michigan Disability Determination
                  Services
              A-01-10-20153




                April 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                            Background
OBJECTIVE
The objective of our review was to assess the impact of reinstating the reconsideration
step in the Michigan Disability Determination Services (DDS) under four scenarios.

BACKGROUND
SSA provides Disability Insurance (DI) and Supplemental Security Income (SSI) to
eligible individuals under Titles II and XVI of the Social Security Act. 1 The Social
Security Administration (SSA) generally refers claims for disability benefits to the State
DDS for disability determinations. 2 If the claimant disagrees with an initial disability
determination, he or she can file an appeal within 60 days from the date he or she
receives notice of the determination. In most States, the first level of appeal is
reconsideration by the DDS. 3

In 1999, SSA began testing several modifications to the disability determination
procedures, including the elimination of the reconsideration step in 10 Prototype States:
Alabama, Alaska, California (Los Angeles North and Los Angeles West Branches),
Colorado, Louisiana, Michigan, Missouri, New Hampshire, New York, and
Pennsylvania. The Agency has decided to assess the effect of reinstating the
reconsideration step as part of the disability claims process in Prototype States because
allowing claims at the reconsideration level provides benefits earlier to some claimants
who would otherwise wait for a hearing. Michigan was selected as the first Prototype
State to reinstate the reconsideration step and will resume reconsiderations in Fiscal
Year (FY) 2011. Decisions about other Prototype States are still pending.

On April 5, 2010, we received a request from the Subcommittee on Social Security,
Committee on Ways and Means, U.S. House of Representatives, to review the impact
of reinstating reconsiderations in the Michigan DDS. Specifically, the Subcommittee




1
    The Social Security Act §§ 201 et seq. and 1601 et seq., 42 U.S.C. §§ 401 et seq. and 1381 et seq.
2
  DDSs are generally State-run agencies that make disability determinations for SSA using the Agency’s
regulations, policies, and procedures. The Social Security Act §§ 221 (a)(2) and 1633 (a),
42 U.S.C. §§ 421 (a)(2) and 1383b (a). See also 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
3
  In most cases, there are three levels of administrative appeal: (1) reconsideration by the DDS,
(2) hearing by an administrative law judge (ALJ) in SSA’s Office of Disability Adjudication and Review
(ODAR), and (3) request for review by the Appeals Council. Claimants still dissatisfied after exhausting
administrative remedies can appeal to the Federal courts.



Reinstatement of the Reconsideration Step in the Michigan DDS (A-01-10-20153)                              1
requested an analysis of the cumulative average processing time for Michigan claimants
under the four scenarios below for each of the following FYs: 2011, 2012, and 2013. 4

    1. SSA implements its plan to reinstate reconsideration and fully funds the new
       reconsideration process.
    2. SSA retains current policy in Michigan: It remains a Prototype State, and no
       additional funds are allocated to the Michigan DDS to process reconsiderations.
    3. Michigan remains a Prototype State, and the funds SSA would have used for the
       reinstatement of reconsideration are provided to the Michigan DDS for
       processing initial claims. (This should include the impact on the level of pending
       initial claims at the end of each FY and the impact on average processing time at
       the initial claims level.)
    4. Michigan remains a Prototype State, and the funds SSA would have used for the
       reinstatement of reconsideration are provided to Michigan hearing offices for
       processing ALJ hearings. (This should include the impact on the level of pending
       hearings at the end of each FY and the impact on average processing time at the
       hearings level.)

To perform this review, we gathered and reviewed data related to claims processing
times and allowance rates in FYs 2008 through 2010; contacted SSA officials and staff
to obtain information on how reinstatement of reconsiderations will affect SSA’s budget
and operations; and researched the impact reinstatement of reconsiderations will have
on DI beneficiaries and SSI recipients. Our review was an assessment of processing
time changes due solely to whether or not the reconsideration step is reinstated in
Michigan. We did not consider the relationship between budgeted workload receipt and
pending levels on processing times. (See Appendix B for additional information on our
scope and methodology.)




4
  The Subcommittee requested our analysis include cumulative average processing time for two groups
(as applicable): (1) for claimants allowed at the reconsideration level, the total cumulative processing
time to receive a reconsideration determination (that is, including processing time at the initial and
reconsideration levels) and (2) for claimants denied at the reconsideration level who appeal to the ALJ
level, the total cumulative processing time to receive an ALJ decision (that is, including processing time at
the initial, reconsideration, and hearing levels). Also, the Subcommittee requested the percentage of
claimants who appeal a denial at the initial level who will fall into each of the two groups.


Reinstatement of the Reconsideration Step in the Michigan DDS (A-01-10-20153)                               2
                                                          Results of Review
Based on available information, we assessed the impact of reinstating the
reconsideration step in the Michigan DDS under four different scenarios—summarized
in Table 1 below. SSA was able to provide the assumptions—specific to reinstating
reconsiderations in Michigan—it used in preparing the FY 2011 budget request;
however, it was not able to provide the assumptions for FYs 2012 and 2013. 5

                       Table 1: Summary of Analysis and Estimates

    Scenario                      DDS                                         ODAR

               Average cumulative processing time
                                                            Average cumulative processing time in
               for initial claims in FY 2011: 123 days.
       1                                                    FY 2011: 915 days. Processing times
               Processing times would not change
                                                            may decrease in future FYs.
               significantly in future FYs.
               Average cumulative processing time           Average cumulative processing time in
               for initial claims in FY 2011: 123 days.     FY 2011: 762 days. Processing times
       2
               Processing times would not change            would not change significantly in future
               significantly in future FYs.                 FYs.
               DDS could adjudicate about 25,300            ODAR could receive about 6,780 more
               more initial claims in FY 2011.              hearing requests per year. Processing
       3
               Processing times would not change            times would probably increase in
               significantly in future FYs.                 future FYs.
               Average cumulative processing time           ODAR could process about
               for initial claims in FY 2011: 123 days.     17,600 additional hearings per year.
       4
               Processing times would not change            Processing times would probably
               significantly in future FYs.                 decrease in future FYs.


Scenario 1             SSA implements its plan to reinstate reconsiderations
                       and fully funds the new reconsideration process.
SSA has committed to reinstating the reconsideration step in the Michigan DDS. The
Agency planned for the additional reconsideration workload in the FY 2011 budget
request, estimating the Michigan DDS would receive 33,750 reconsideration claims




5
  SSA only breaks out operational budgets at the State level for the current budget year. The Agency
budget requests for future FYs do not include State-specific assumptions. The President’s budget
estimates new initial disability claims will be 3,275,400; 3,192,000; and 2,887,400 in FYs 2011
through 2013, respectively.



Reinstatement of the Reconsideration Step in the Michigan DDS (A-01-10-20153)                          3
during the year, and 114 staff resources will be needed to process the anticipated
workload. 6 Currently, the DDS is hiring additional staff—fully funded and supported by
SSA. 7

These additional staff and resources would allow the Michigan DDS to maintain the
current level of service to claimants at the initial level. In FY 2010 (as of
March 26, 2010), the DDS had processed initial DI claims in about 123 days and SSI
claims in about 119 days from date of application to determination. 8 (See Appendix C
for statistics by DDS for FYs 2008, 2009, and 2010.) During the same time period at
the national level, DDSs had processed DI reconsideration claims in about 276 days
cumulatively from date of application through reconsideration. 9 We assume that
Michigan would process reconsideration claims in line with the national average.
Historically, about 44 percent of claimants appealed initial determinations, and about
14 percent of reconsideration claims were allowed. 10 We estimate that about
4,700 claimants would be allowed at the reconsideration level and thus receive benefits
sooner than if they were to go through the entire hearing process.

The Agency does not report cumulative processing time for claims at the hearing level.
However, in our December 2008 report, Disability Claims Overall Processing Times
(A-01-08-18011), we determined it took SSA an average 811 days to process a
disability claim from date of application through the hearing level in Calendar Year 2006,
with 482 of those days spent at ODAR. 11 In FY 2010, the five ODAR offices in Michigan


6
 The 114 staff resources is the number of workyears—the equivalent of full-time positions or a
combination of full-, part- or overtime hours worked—not the number of employees the DDS will need to
process the reconsideration workload.
7
 We did not factor in the time for training new disability examiners so they are able to work at full
capacity.
8
  The average processing time is the overall, cumulative number of elapsed days, including both DDS and
field office processing times, from the date of filing through the date payment is made or the denial notice
is issued for all initial claims that require a medical determination.
9
  The average processing time is the overall, cumulative number of elapsed days, including both DDS and
field office processing times and time for claimants to file appeals, from the date of filing through the date
payment is made or the denial notice is issued for all reconsideration claims that require a medical
determination.
10
     SSA, Office of Retirement and Disability Policy, April 2009.
11
   The average processing time is the overall, cumulative number of elapsed days, including DDS, field
office, ODAR and payment center processing times and time for claimants to file appeals, from the date
of filing through the date payment is made or the denial notice is issued for all reconsideration claims that
require a medical determination. In our 2008 review, we determined claims processed through the
hearing level took, on average, 65 days in SSA’s field offices, 151 days in DDSs (including initial and
reconsideration levels), 456 days in ODAR hearing offices, 1 day for Federal quality reviews, 41 days in
other Agency offices, and 97 days of down time (time over which SSA had no control, such as mail time
or time for the claimant to file appeals). The full report can be found at
http://www.ssa.gov/oig/ADOBEPDF/A-01-08-18011.pdf.


Reinstatement of the Reconsideration Step in the Michigan DDS (A-01-10-20153)                               4
have processed hearings in an average 559 days. 12 (See Appendix D for ODAR
statistics for FYs 2008 through 2010.) Historically, about 73 percent of claimants appeal
reconsideration determinations. 13 Since the hearing offices nationwide have a backlog
of cases to process, reinstating the reconsideration step in the DDS would not
necessarily result in decreased processing time at ODAR in FY 2011. However, as
ODAR works through the backlog, processing times may decrease in future FYs.

Assuming that all appeals of initial determinations in FY 2011—which begins
October 1, 2010—would be reconsiderations, there would be about a 2-month period in
which ODAR would not receive new requests for hearings while the reconsiderations
are being processed. Additionally, claimants allowed at the reconsideration step would
not be likely to appeal to ODAR. Because of these 2 factors, SSA expects about
11,250 fewer appeals to ODAR in FY 2011.

Based on these data and assumptions, we estimate in FY 2011:

      1. The Michigan DDS would process initial claims in 123 days from the date of
         application and reconsiderations in about 276 days from the date of initial
         application. Based on available information, we have no reason to believe
         processing times would change significantly in FYs 2012 and 2013.

      2. ODAR would process appeals of reconsideration denials from the Michigan DDS
         in about 915 days from the date of initial application. 14 However, the reduced
         number of appeals would allow ODAR to focus on processing older claims and
         decreasing the number of pending hearings. This could result in decreased
         processing times and the number of pending hearings in FYs 2012 and 2013.

Scenario 2                 Michigan remains a Prototype State, and no
                           additional funds are allocated to the Michigan DDS to
                           process reconsiderations.
The Michigan DDS is hiring new staff in anticipation of reinstating reconsiderations in
FY 2011. SSA has already committed to supporting the DDS and funding these new
hires. However, if the new staff to process reconsiderations were not hired, we assume,
in FY 2011, the DDS would continue to process initial claims in 123 days from the date
of application, and hearing offices in Michigan would continue to process hearings in



12
 In Michigan, ODAR has hearing offices in Detroit, Flint, Grand Rapids, Lansing, and Oak Park.
Nationally, in FY 2010, ODAR offices have processed hearings in 442 days, on average.
13
     SSA, Office of Retirement and Disability Policy, April 2009.
14
  We calculated the 915 days by taking the results from our 2008 review and updating them with
available FY 2010 data, including 559 days for the hearing decisions in Michigan ODAR offices and
276 days (cumulative) for reconsideration determinations in the Michigan DDS.


Reinstatement of the Reconsideration Step in the Michigan DDS (A-01-10-20153)                       5
559 days from the date of the request for hearing—or 762 days from the date of
application. 15 Based on available information, we have no reason to believe processing
times would change significantly in FYs 2012 and 2013.

                Michigan remains a Prototype State, and the funds
Scenario 3
                SSA would have used for the reinstatement of
reconsiderations are provided to the Michigan DDS for processing
initial claims.

As of March 2010, the Michigan DDS had almost 32,000 initial claims pending. SSA
estimates the DDS will process about 222 initial claims per employee per year in
FY 2011. The DDS is hiring new staff to process the anticipated reconsideration
workload. 16 We assume all disability examiners in Michigan, including the new staff,
would continue to process initial claims, rather than reconsiderations, at the current rate.
Based on these assumptions, we estimate:

     1. The Michigan DDS could adjudicate about 25,300 more initial claims in FY 2011.
        This would result in a significant decrease in initial claims pending, approximately
        9,000 additional allowances, and about 6,780 additional appeals to ODAR. 17
        Based on available information, we have no reason to believe processing times
        and the number of claims processed would change significantly in FYs 2012 and
        2013.

     2. ODAR would process appeals of initial denials from the Michigan DDS in about
        762 days from the date of application. In FY 2011, the additional appeals to
        ODAR would not significantly impact processing time. However, without
        additional resources, the increased ODAR workloads would increase processing
        times and the number of pending hearings in FYs 2012 and 2013.

               Michigan remains a Prototype State, and the funds
Scenario 4
               SSA would have used for the reinstatement of
reconsiderations are provided to Michigan hearing offices for
processing ALJ hearings.
The Michigan DDS is hiring new staff in anticipation of reinstating reconsiderations.
SSA has already committed to supporting the DDS and funding these new hires.
However, if the new staff to process reconsiderations were not hired, we assume the
15
  We calculated the 762 days by taking the results from our 2008 review and updating them with
available FY 2010 data, including 559 days for the hearing decisions in Michigan ODAR offices and
123 days (cumulative) for initial determinations in the Michigan DDS.
16
  We did not factor in the time for training new disability examiners so they are able to work at full
capacity.
17
 Historically, the appeal rate to ODAR in Prototype States has been 41.6 percent. SSA, Office of
Retirement and Disability Policy, April 2009.


Reinstatement of the Reconsideration Step in the Michigan DDS (A-01-10-20153)                            6
DDS would continue to process initial claims in 123 days from the date of filing. The
funds SSA would have used to reinstate reconsiderations, totaling almost $20.6 million,
could be moved to ODAR. 18 If ODAR were able to immediately use these funds to
processing hearings in FY 2011, it could process about 17,600 additional hearings. 19

However, according to SSA, all hearing offices nationwide are operating at full capacity,
and the Agency has implemented its Plan to Eliminate the Hearing Backlog and Prevent
Its Recurrence. 20 Any funding transferred from the DDS to ODAR could be used for
additional overtime for support staff to prepare more claims for hearings. Otherwise,
these funds would not result in additional hearings being processed in FY 2011 because
the Agency would need to acquire additional office space and hire more ALJs and
support staff—which could not be fully implemented quickly. If ODAR did use these
funds to acquire additional office space and hire more ALJs and support staff, we would
expect the number of hearings held to increase and processing times to decrease in
FYs 2012 and 2013.

BENEFITS OF REINSTATING THE RECONSIDERATION STEP
According to SSA, reinstatement of the reconsideration step in the Prototype States
offers several potential benefits.

      •   The Agency would return to a uniform national disability determination process
          with the same appeal rights for all claimants. Currently, disability applications in
          Prototype States do not have a reconsideration step, while applicants in non-
          Prototype States do. Further, applicants living in one part of California have a
          reconsideration process while applicants in other parts of California do not.
      •   The reconsideration process would provide a faster first-level appeal—currently
          84 days in the DDS, rather than 559 days at ODAR. Although the
          reconsideration allowance rate would be lower than at the initial or hearings
          levels, the claimants who are allowed would get positive results much sooner
          than if they were to go through the entire hearing process.
      •   The reconsideration process would moderate the volume of hearing requests.
          The national reconsideration allowance rate is about 14 percent, and 27 percent
          of those denied at the reconsideration level do not request a hearing—resulting
          in many new cases per year that would not proceed to hearing.


18
  The Michigan DDS cost per case (as of March 2010) was $611.61, based on a 12-month rolling
average. This cost includes all costs related to claims adjudication, such as examiner salaries and
benefits, medical consultant salaries, medical records and examination costs, and overhead. The cost of
processing the anticipated 33,750 reconsiderations would be $20.6 million.
19
     In FY 2009, the ODAR cost per case was $1,171, based on costs throughout the entire FY.
20
   SSA, Plan to Eliminate the Hearing Backlog and Prevent Its Recurrence, Annual Report, Fiscal
Year 2008. The plan is at
http://www.socialsecurity.gov/appeals/Backlog_Reports/Annual_Backlog_Report_FY_2008-Jan.pdf.


Reinstatement of the Reconsideration Step in the Michigan DDS (A-01-10-20153)                         7
   •   For reconsideration denials, a well documented claim will go forward to ODAR,
       with less documentation needed at the hearing level for an overall more efficient
       process.




Reinstatement of the Reconsideration Step in the Michigan DDS (A-01-10-20153)              8
                                                              Conclusions
Based on the available information, we assessed the impact of reinstating the
reconsideration step in the Michigan DDS under four different scenarios.

1. If SSA reinstates the reconsideration step in the Michigan DDS and fully funds the
   process, we estimate, in FY 2011, (a) the Michigan DDS would process initial claims
   in 123 days from the date of filing and reconsideration claims in 276 days from the
   date of filing, and (b) ODAR would process appeals of reconsideration determinations
   in the Michigan DDS in about 915 days from the date of initial application. Based on
   available information, we have no reason to believe DDS processing times would
   change significantly in FYs 2012 and 2013. However, as ODAR works through the
   backlog, processing times may decrease in FYs 2012 and 2013.

2. If the Michigan DDS continues to be a Prototype State without additional funding, we
   estimate, in FY 2011, (a) the DDS would continue to process initial claims in
   123 days from the date of filing, and (b) ODAR would continue processing appeals of
   initial determinations from the Michigan DDS in 559 days from the date of the request
   for hearing—or 762 days from the date of initial application. Based on available
   information, we have no reason to believe processing times would change
   significantly in FYs 2012 and 2013.

3. If Michigan remains a Prototype State and funds for reinstating reconsiderations are
   used to process initial claims, we estimate, in FY 2011, (a) the Michigan DDS could
   adjudicate about 25,300 more initial claims—resulting in approximately
   9,000 additional allowances and about 6,780 additional appeals to ODAR, and
   (b) ODAR would process appeals of initial determinations from the Michigan DDS in
   about 762 days from the date of application. Based on available information, we
   have no reason to believe DDS processing times would change significantly in FYs
   2012 and 2013. However, without additional resources for ODAR, the increased
   workloads would increase processing times and the number of pending hearings in
   FYs 2012 and 2013.

4. If Michigan remains a Prototype State and funds for reinstating reconsiderations are
   used to process hearings, we estimate ODAR could process almost 17,600 additional
   hearings, if the Agency were able to immediately use these funds for processing
   hearings in FY 2011. However, since hearing offices nationwide are operating at full
   capacity, any funds transferred from DDS to ODAR would not result in additional
   hearings being processed in FY 2011. If these funds were used to acquire additional
   office space and hire more ALJs and support staff, we would expect the number of
   hearings held to increase and processing times to decrease in FYs 2012 and 2013.




Reinstatement of the Reconsideration Step (A-01-10-20153)                                 9
                                                          Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Disability Statistics by Jurisdiction
APPENDIX D – Office of Disability Adjudication and Review Statistics




Re in s ta te m e n t o f th e Re c o n s id e ra tio n S te p in th e Mic h ig a n DDS (A-01-10-20153)
                                                                      Appendix A

Acronyms
    ALJ                Administrative Law Judge

    C.F.R.             Code of Federal Regulations

    DDS                Disability Determination Services

    DI                 Disability Insurance

    FY                 Fiscal Year

    ODAR               Office of Disability Adjudication and Review

    SSA                Social Security Administration

    SSI                Supplemental Security Income

    U.S.C.             United State Code




Reinstatement of the Reconsideration Step (A-01-10-20153)
                                                                          Appendix B

Scope and Methodology
To achieve our objective, we:

    •   Reviewed the Social Security Act and Social Security Administration (SSA)
        regulations, rules, policies, and procedures on disability case processing.

    •   Reviewed prior Office of the Inspector General reports.

    •   Reviewed disability claims processing data from SSA for Fiscal Years 2008
        through 2010.

    •   Contacted SSA officials and staff to obtain information on SSA’s budget costs,
        processing times, and workload information relative to reinstating
        reconsiderations in the Michigan Disability Determination Services. Because of
        time constraints, we did not independently verify the data the Agency provided.

    •   Estimated cumulative processing times for disability hearing decisions in
        Fiscal Year 2011, using results from our December 2008 report, Disability
        Claims Overall Processing Times (A-01-08-18011) and updating them with
        available Fiscal Year 2010 data. Our review was an assessment of processing
        time changes due solely to whether or not the reconsideration step is reinstated
        in Michigan. We did not consider the relationship between budgeted workload
        receipt and pending levels on processing times.

We conducted our review during April 2010 in Boston, Massachusetts. The principle
entity reviewed was the Office of Disability Determinations under the Deputy
Commissioner of Operations. We conducted our review in accordance with the Council
of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspections.




Reinstatement of the Reconsideration Step in the Michigan DDS (A-01-10-20153)
                                                                                 Appendix C

Disability Statistics by Jurisdiction
Table C-1 shows non-Prototype State disability determination services’ (DDS) average
overall processing times for Disability Insurance (DI) claims in Fiscal Years (FY) 2008
through 2010 (as of March 26, 2010). 1

       C-1: Non-Prototype Overall Processing Times for DI Claims Sent to a DDS
            DDS             FY 2008                    FY 2009                     FY 2010
                      Initial      Recon         Initial     Recon           Initial       Recon
    Arizona              124.9         353.3       108.5          301.4          116.5         279.2
    Arkansas              85.9         205.2         83.3         186.0           98.6         209.1
    Connecticut           97.7         232.9       111.4          261.9          116.2         259.6
    Delaware             125.5         341.9       140.1          280.0          133.5         279.9
    District of          117.3         351.8       103.7          299.3          136.3         279.4
    Columbia
    Florida              108.6         284.9         99.5         257.5          101.4         252.4
    Georgia              113.8         308.9       120.4          345.9          149.7         437.5
    Hawaii               116.2         374.8       113.0          313.7          128.2         329.6
    Idaho                 88.6         214.7         89.7         205.3           95.6         212.2
    Illinois             103.8         256.3       101.5          238.4          112.6         270.6
    Indiana              108.1         225.2       100.9          213.2          109.4         228.0
    Iowa                  96.8         246.0         91.8         219.2           92.7         224.5
    Kansas                93.8         234.9         96.9         255.6          109.0         279.8
    Kentucky             100.9         215.8       103.7          214.0          109.7         215.8
    Maine                 94.6         244.8       107.7          280.5          108.7         323.3
    Maryland             110.2         300.7       117.6          306.2          156.3         356.6
    Massachusetts        109.5         265.3       123.2          284.3          141.2         337.4
    Minnesota            103.9         252.7       101.4          243.0          107.6         239.4
    Mississippi           93.1         191.9         95.8         186.0          102.3         197.3
    Montana              104.3         269.4       100.3          248.9          109.8         263.9
    Nebraska              83.9         212.3         85.3         206.2          100.1         224.6
    Nevada               122.7         416.0       117.1          300.3          142.6         302.0


1
  SSA, Office of Disability Programs, Performance Management System On-Line Reporting of DDS
Performance, April 2010. SSA tracks initial processing times for both DI and Supplemental Security
Income claims (SSI) claims. However, the Agency only tracks reconsideration processing times for DI
claims. Therefore, this chart includes information for DI claims only.


Reinstatement of the Reconsideration Step in the Michigan DDS (A-01-10-20153)                         C-1
    C-1: Non-Prototype Overall Processing Times for DI Claims Sent to a DDS
        DDS                FY 2008                 FY 2009                   FY 2010
                     Initial    Recon        Initial    Recon          Initial     Recon
 New Jersey             151.0        391.1     127.8         343.1         137.6       331.3
 New Mexico             100.4        242.2     104.4         273.2         112.6       372.5
 North Carolina         115.9        271.9     124.0         293.7         108.9       283.2
 North Dakota            90.1        215.8       96.1        237.9         109.7       248.6
 Ohio                   118.3        299.6     113.5         286.9         144.8       334.8
 Oklahoma               112.3        261.1     103.3         235.4         120.1       243.3
 Oregon                 111.1        278.5     104.1         266.6         121.5       276.9
 Puerto Rico            167.2        557.6     153.4         360.3         144.0       310.3
 Rhode Island           156.4        356.3     155.5         348.4         167.9       371.9
 South Carolina         109.1        267.6     116.8         287.9         128.7       354.3
 South Dakota           110.2        254.3     109.9         248.3         113.9       251.2
 Tennessee              117.0        287.2     114.8         260.6         135.9       276.3
 Texas                   93.3        216.7       89.1        198.6         104.9       214.6
 Utah                   108.4        267.1     115.1         250.8         138.8       263.3
 Vermont                131.5        292.2     129.1         294.5         134.1       313.3
 Virginia               107.5        272.3     115.1         290.9         143.9       325.8
 Washington             102.8        252.1       96.1        242.6         106.0       238.8
 West Virginia           98.9        243.6     101.8         246.3         107.4       241.3
 Wisconsin              108.2        280.2     137.0         315.6         114.8       278.1
 Wyoming                111.5        232.6       95.7        207.2         108.1       201.5




Reinstatement of the Reconsideration Step in the Michigan DDS (A-01-10-20153)              C-2
Table C-2 shows Prototype State DDS average overall processing times for DI claims in
FYs 2008 through 2010 (as of March 26, 2010). 2

          C-2: Prototype Overall Processing Times for DI Claims Sent to a DDS
                                   FY 2008                      FY 2009                   FY 2010
          DDS
                             Initial     Recon           Initial     Recon          Initial     Recon
    Alabama                     88.7             432.7        88.2       446.0             95.3           500.3
    Alaska                     115.3             410.8       130.0       382.4         122.8              288.6
    California                 111.7             282.6       100.4       250.1         111.4              282.6
    Colorado                   103.5             401.4       115.6       381.2         156.6              575.1
    Louisiana                   92.8             478.3        86.9       430.1             99.0           707.8
    Michigan                   107.7             832.8       120.9       656.5         122.7              572.1
    Missouri                    79.9             436.6        80.6       506.1             97.4           776.1
    New Hampshire              129.8             462.0       124.2       360.5         146.9              948.8
    New York                   115.4             401.9       105.6       367.2         107.6              419.8
    Pennsylvania               120.1             538.4       119.3       461.9         135.2              413.9


Table C-3 shows non-Prototype State DDS claims dispositions in FYs 2008 through
2010 (as of March 26, 2010). 3

                          Table C-3: Non-Prototype DDS Claims Dispositions
                                       FY 2008                    FY 2009            FY 2010
                      DDS
                                   Initial   Recon            Initial  Recon     Initial  Recon
               Arizona                  35,247      10,558     43,508   13,024    22,126          6,935
               Arkansas                 43,285      13,696     44,624   13,242    22,304          7,200
               Connecticut              23,536       2,186     24,695    7,444    14,083          4,515
               Delaware                  6,242       1,600      6,138    1,890     3,148           699
               District of               5,509       1,676      8,323    1,936     4,905           829
               Columbia
               Florida                 162,414      45,510    190,282   56,727   106,892     31,857
               Georgia                  85,149      27,625     89,377   19,458    45,339     12,680
               Hawaii                    6,782       1,300      8,090    1,118     4,024           711
               Idaho                    11,372       2,780     15,021    3,770     7,875          2,489
               Illinois                100,541      27,236     96,050   25,095    51,367     15,415
               Indiana                  58,842      18,213     63,552   19,063    37,765     11,514
               Iowa                     20,352       6,316     22,956    6,672    11,856          3,875


2
  SSA, Office of Disability Programs, Performance Management System On-Line Reporting of DDS
Performance, April 2010. SSA tracks initial processing times for both DI and SSI claims. However, the
Agency only tracks reconsideration processing times for DI claims. Therefore, this chart includes
information for DI claims only.
3
 SSA, Office of Disability Programs, Performance Management System On-Line Reporting of DDS
Performance, April 2010. This table includes information for both DI and SSI claims.


Reinstatement of the Reconsideration Step in the Michigan DDS (A-01-10-20153)                                C-3
                    Table C-3: Non-Prototype DDS Claims Dispositions
                                FY 2008              FY 2009            FY 2010
                DDS
                            Initial   Recon      Initial  Recon     Initial  Recon
         Kansas               20,679     6,332    21,923    5,855    11,776      3,928
         Kentucky             58,899    22,468    62,290   21,925    33,387     12,387
         Maine                12,062     1,149    13,705    3,922     7,135      3,311
         Maryland             42,832    10,564    43,938   11,059    21,598      5,249
         Massachusetts        51,021     3,912    52,496   11,525    27,213      8,343
         Minnesota            34,556    11,266    35,579   10,925    19,965      6,244
         Mississippi          48,289    15,869    50,331   16,816    26,976      9,626
         Montana               6,674     1,940     7,606    1,905     3,758      1,081
         Nebraska             11,549     3,326    12,097    3,237     6,505      1,741
         Nevada               18,046     4,337    18,874    5,077     9,879      2,796
         New Jersey           54,346    15,845    55,297   14,437    27,868      6,010
         New Mexico           18,134     5,762    19,367    4,108    11,323      1,751
         North Carolina       82,808    27,350   100,416   33,174    51,695     19,189
         North Dakota          3,493     1,143     3,361    1,149     2,054       567
         Ohio                123,373    34,547   120,609   42,110    63,603     17,395
         Oklahoma             37,176    11,134    39,163   10,645    20,778      6,385
         Oregon               26,183     7,617    29,438    9,571    16,800      4,458
         Puerto Rico          16,960     9,626    20,109    5,355    10,729      2,456
         Rhode Island          9,942     1,036    10,008    2,913     6,018      1,922
         South Carolina       46,048    15,532    51,272   12,062    29,372      6,817
         South Dakota          5,204     1,536     5,318    1,210     2,961       700
         Tennessee            64,972    27,853    72,421   28,237    42,747     15,187
         Texas               198,414    49,755   209,817   48,943   115,294     28,048
         Utah                 11,162     3,158    11,765    3,674     6,742      2,285
         Vermont               4,931      414      5,256    1,231     2,884       702
         Virginia             54,541    14,153    55,783   13,615    28,488      8,961
         Washington           45,574    13,314    48,951   16,202    26,838      8,945
         West Virginia        26,029     9,663    26,401   11,071    14,204      5,935
         Wisconsin            40,903    11,405    45,951   10,903    29,646      7,092
         Wyoming               2,981      565      3,186      451     1,870       426




Reinstatement of the Reconsideration Step in the Michigan DDS (A-01-10-20153)            C-4
Table C-4 shows Prototype State DDS claims dispositions in FYs 2008 through 2010
(as of March 26, 2010). 4

                       Table C-4: DDS Prototype Claims Dispositions 5
                                     FY 2008              FY 2009               FY 2010
                     DDS
                                 Initial  Recon       Initial  Recon        Initial  Recon
          Alabama                 62,546       342     72,384        455    39,927        361
          Alaska                   4,129        26      4,374         21     2,455         10
          California             261,511    55,805   273,068     59,675    132,599     29,124
          Colorado                27,799       165     27,662        112    14,319         63
          Louisiana               54,510       345     60,790        348    32,634        178
          Michigan               104,178       401   107,181         400    58,437        247
          Missouri                61,737       322     65,796        267    36,432        192
          New Hampshire            9,319        16      9,919         37     5,578         34
          New York               150,299     1,330   156,742       1,334    86,901        546
          Pennsylvania           121,703       346   123,351         372    65,951        204


Table C-5 shows non-Prototype State DDS allowance rates in FYs 2008 through2010
(as of March 26, 2010). 6

                       Table C-5: DDS Non-Prototype Allowance Rates
                                     FY 2008              FY 2009               FY 2010
                     DDS
                                 Initial Recon        Initial  Recon        Initial  Recon
          Arizona                   36.9      20.0       34.3       17.1       31.8      15.2
          Arkansas                  36.1      11.1       37.1       11.7       34.3      10.1
          Connecticut               33.1      14.7       31.9       14.2       31.2      11.4
          Delaware                  44.5      15.0       42.9       10.1       40.9        9.1
          District of Columbia      44.6      22.1       40.5       17.0       47.4      19.6
          Florida                   33.6      14.0       34.7       14.7       33.4      13.8
          Georgia                   24.9      10.3       28.7       16.6       29.6      16.5
          Hawaii                    52.6      25.2       50.3       23.8       47.3      27.8
          Idaho                     39.2      10.4       38.6       10.9       34.4      10.9
          Illinois                  35.6      14.1       36.0       12.5       34.4      10.9


4
 SSA, Office of Disability Programs, Performance Management System On-Line Reporting of DDS
Performance, April 2010. This table includes information for both DI and SSI claims.
5
 In California, only two of the DDS branches are Prototype, and the other non-Prototype branches
process reconsiderations. For any claimant who files a reconsideration claim in a non-Prototype State
and moves to a Prototype State, the claim will be transferred to the DDS in the new State of residence,
which will continue to process the reconsideration. Therefore, Prototype States process a small number
of reconsideration claims.
6
 SSA, Office of Disability Programs, Performance Management System On-Line Reporting of DDS
Performance, April 2010. This table includes information for both DI and SSI claims.


Reinstatement of the Reconsideration Step in the Michigan DDS (A-01-10-20153)                        C-5
                       Table C-5: DDS Non-Prototype Allowance Rates
                                   FY 2008           FY 2009            FY 2010
                   DDS
                               Initial Recon     Initial  Recon     Initial  Recon
         Indiana                 36.2      6.8      35.1      6.6      34.0      6.6
         Iowa                    32.4     12.2      33.3     10.4      32.4      9.5
         Kansas                  36.0     16.2      38.3     18.3      39.0     18.0
         Kentucky                28.8      7.7      32.3      8.8      30.4      8.3
         Maine                   35.7     15.5      32.4     13.3      33.0     15.5
         Maryland                37.6     20.0      38.7     18.9      37.5     17.7
         Massachusetts           45.7     29.0      46.2     27.4      44.6     26.4
         Minnesota               37.4     12.4      39.6     11.0      37.7      9.7
         Mississippi             24.5      6.9      26.6      6.9      25.2      6.2
         Montana                 41.6     14.6      41.5     15.0      40.5     14.4
         Nebraska                37.3     12.0      38.6     12.9      39.6     14.9
         Nevada                  42.7     22.6      41.4     16.4      38.5     16.1
         New Jersey              45.0     20.8      48.4     20.8      47.4     15.2
         New Mexico              36.4     13.2      37.2     14.4      36.1     16.4
         North Carolina          30.9     13.2      29.6     12.5      28.6     11.7
         North Dakota            38.2     12.7      40.4     10.8      44.1     14.7
         Ohio                    27.1     10.5      28.6     10.4      31.1     12.8
         Oklahoma                39.7     14.6      38.6     12.5      36.6     11.8
         Oregon                  37.4     13.2      39.9     13.1      40.3     12.8
         Puerto Rico             43.7     28.1      59.8     35.5      61.7     30.2
         Rhode Island            38.2     18.2      37.5     14.9      36.0     13.8
         South Carolina          31.1     15.3      31.9     15.1      29.8     15.4
         South Dakota            35.8     11.6      40.0     11.9      42.8     12.5
         Tennessee               25.1      8.7      27.5      9.3      25.8      7.9
         Texas                   42.5     20.1      43.5     19.8      41.4     17.5
         Utah                    44.3     15.6      44.4     13.1      40.8     11.9
         Vermont                 48.1     15.9      48.3     15.7      44.2     21.4
         Virginia                39.6     14.3      40.4     14.3      40.0     12.9
         Washington              39.7     10.7      39.9     10.8      39.3     11.1
         West Virginia           26.4     10.2      26.4      8.2      25.8      8.4
         Wisconsin               40.3     17.8      44.1     18.2      38.9     16.2
         Wyoming                 48.0     10.4      51.8      7.0      49.1      4.5




Reinstatement of the Reconsideration Step in the Michigan DDS (A-01-10-20153)          C-6
Table C-6 shows Prototype State DDS allowance rates in FYs 2008 through 2010 (as of
March 26, 2010). 7

                        Table C-6: DDS Prototype Allowance Rates
                                  FY 2008             FY 2009             FY 2010
                  DDS
                              Initial  Recon      Initial  Recon      Initial  Recon
         Alabama                 31.8      22.3      31.6      17.3      30.8      20.7
         Alaska                  42.9      28.0      51.2      16.7      47.8       0.0
         California              39.0      12.9      37.6      12.1      36.0      12.2
         Colorado                34.9      21.5      39.4      20.4      38.5      31.6
         Louisiana               36.6      25.7      36.2      24.9      35.4      27.3
         Michigan                30.2      27.7      36.6      31.3      34.1      28.4
         Missouri                33.6      28.3      33.6      27.7      32.5      22.8
         New Hampshire           51.9      36.4      51.9      35.5      50.1      35.5
         New York                44.3      51.2      45.0      44.2      42.1      38.2
         Pennsylvania            36.7      27.9      35.3      25.9      34.0      23.5




7
 SSA, Office of Disability Programs, Performance Management System On-Line Reporting of DDS
Performance, April 2010. This table includes information for both DI and SSI claims.


Reinstatement of the Reconsideration Step in the Michigan DDS (A-01-10-20153)                 C-7
                                                                          Appendix D

Office of Disability Adjudication and Review
Statistics
In April 2010, the Social Security Administration provided us data on hearing decisions.
Table D-1 shows Office of Disability Adjudication and Review (ODAR) hearings
processed in Michigan and nationally in Fiscal Years (FY) 2008 through 2010 (as of
March 2010).
                         Table D-1: ODAR Hearings Processed
            Michigan DDS           FY 2008            FY 2009            FY 2010
        Detroit                       5,488              5,515              3,135
        Flint                         4,032              3,667              1,943
        Grand Rapids                  4,314              4,704              2,179
        Lansing                       3,818              3,719              1,807
        Oak Park                      4,991              6,058              2,976
        Total                        22,643             23,663             12,040
        National Total              575,380            660,842            353,988

Table D-2 shows ODAR processing times in Michigan and nationally in FYs 2008
through 2010 (as of March 2010).
                            Table D-2: ODAR Processing Times
             Michigan DDS           FY 2008            FY 2009            FY 2010
       Detroit                         629                663               584
       Flint                           722                622               491
       Grand Rapids                    676                618               548
       Lansing                         726                636               584
       Oak Park                        731                674               590
       Average                         697                643               559
       National Average                514                491               442

Table D-3 shows ODAR allowance rates in Michigan and nationally in FYs 2008 through
2010 (as of March 2010).
                            Table D-3: ODAR Allowance Rates
             Michigan DDS           FY 2008            FY 2009            FY 2010
       Detroit                        56%                56%               62%
       Flint                          61%                65%               75%
       Grand Rapids                   54%                53%               62%
       Lansing                        59%                62%               67%
       Oak Park                       56%                56%               64%
       Average                        57%                58%               66%
       National Average               63%                63%                N/A




Reinstatement of the Reconsideration Step in the Michigan DDS (A-01-10-20153)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
